IN THE

6upretue Court of tije Eniteb ikateo
GERSON IRVING FOX,
Petitioner.
v.
ELISSA MILLER,
CHAPTER 7 TRUSTEE
Respondent.

)
)
)
)
)
)
)
)
)
)
)

No.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the
Ninth Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a Writ of
Certiorari filed on behalf of Gerson Irving Fox, in the above-captioned matter contains 4,478
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury under the laws of the United States of America that the
foregoing is true and correct. Executed on February 27, 2020, at Beverly Hills, California.

By:
GERSON IRVING FOX
337 S. Roxbury Drive
Beverly Hills, California 90212
In Propria Persona

3996596.1

